No. 20-621
In The

J3»uprmte (Eourt of i\\z JSraiebJBt&tez
HUA CAI
Petitioner-Plain tiff-Appellan t
v.
HUNTSMAN CORPORATION
Respondent-Defendant-Appellee

On Petition for a Writ of Certiorari
to the United States Court of Appeals for
the Tenth Circuit
PETITION FOR REHEARING
HUA CAI
Pro se
2F No. 5, 113 Lane,
Changshu Road, Shanghai,
200040 P.R. China
Tel: +86 136 8195 1099
mustangincpk@y ahoo .com

RECE!V*=D
FEB 1 9 m
co wtuIsk

i

1

TABLE OF CONTENTS
TABLE OF AUTHORITIES.....

n

APPENDIX..................................

in

GROUNDS FOR REHEARING
ARGUMENT......................

1
3

I:

Business Conduct Guidelines Is Exactly
A Legally Enforceable Contract...............

3

II: Lower Court’s Verdict Is Egregious,
This Court Shall Not Tolerate
Perversion Of Law.....................................

5

CONCLUSION

7

11

TABLE OF AUTHORITIES
CASES

Page

Delia v. Verizon Communications Inc.,
656 F.3d 1,7 (1st Cir. 2011).........................

5

Grable & Sons Metal Prods., Inc. v. Darue
Eng'g & Mfg., 545 U.S. 308 (2005).............

6

RULES
Supreme Court Rule 15.6

1

Supreme Court Rule 44.2

1

Ill

APPENDIX
Page
APPENDIX A
E-mail to Mr. Scott Harris

lb

APPENDIX B
DHL Air Waybill

2b

1
Pursuant to Rule 44.2, and based on intervening
circumstances of a substantial or controlling effect,
Petitioner Hua Cai respectfully petitions for
rehearing of the Court’s order denying certiorari in
this case.
GROUNDS FOR REHEARING
Clerk of this Court violated Petitioner’s
procedural due process rights by intentionally
ignoring court’s rule as to the filing of reply brief for
the petitioner.
According to the Court Rule 15.6, petitioner has
the right to file a Reply Brief after respondent filed
its Brief in Opposition. Petitioner timely filed Reply
Brief but the Reply Brief was not distributed for
conference.
Petitioner sent the Reply Brief on Dec. 29, 2020,
which was the 12th day after Respondent file its
Brief in Opposition, by third-party commercial
carrier DHL (air waybill No. 1923548406), the
express arrived Washington DC on Dec. 31, 2020,
and was signed for by DOOR MARBURY on Jan. 4,
2021 (App. B, 2b). The Docket shows that the Clerk
office distributed documents for conference 2 days
later, on Jan. 6, 2021, but did not distribute
petitioner’s Reply Brief. Because petitioner cannot
find the Reply Brief on the Docket, Petitioner
e-mailed Mr. Scott Harris to check if the clerk office
have received it, but he didn’t reply (App. A, lb). In
order to catch up the conference scheduled on Jan. 22,
2021, Petitioner resent the Reply Brief on Jan. 11,

2

2021, via DHL (air waybill No.2249536973), this
express was delivered on Jan. 15, 2021 (App. B, 3b).
Petitioner sent again an e-mail to Mr. Scott Harris to
follow up the delivery status, but still no response
(App. A, lb). Mr. Scott Harris dose not always keep
silent, he would reply e-mail to remind respondent’s
rookie attorney for electronic filing, but never
respond to petitioner’s requests and inquiries.
The strange thing is, until Jan. 15, 2021, the
Petitioner’s Reply Brief was not available on Docket,
so Petitioner was sending e-mail to clerk office to
check on that day, but after certiorari denied on Jan.
22, 2021, the Reply Brief appeared on the Docket,
with entry date Jan. 11, 2021. obviously this filing
time is fake. Even assuming the filing date is true,
the status shows undistributed.
More puzzled, Petitioner serve the Reply Brief in
paper form, but the file download from Docket has no
Court Stamp on it (The document filed in paper form
is usually stamped by clerk with two stamps, one for
the date it was filed, and the other for the date it was
received, before scan to Docket).
Therefore, Petitioner has good reason to suspect
that the clerk office intentionally withheld
Petitioner’s Reply Brief until certiorari was denied,
then put it on Docket. The Justice and their assistant
made their decision without seeing the Reply Brief.
In view of this, the rehearing should be granted and
this court need to thoroughly investigate what is the
real filing time and what happened.

3

ARGUMENT
I. Business Conduct Guidelines Is Exactly A
Legally Enforceable Contract.
Respondent repeatedly stressed that Cai was not
an employee of Huntsman Corporation. See Br. in
Opp. 1-2. But their emphasis makes no sense. In the
“Business Conduct Guidelines” (hereinafter BCG),
Huntsman Corporation has clearly indicated that
10,000+ associates they employed worldwide are the
contracting party. (R.103.) Vicky Fan, an employee of
Huntsman Shanghai, of course an associate, signed
BCG as one of representative from China (R.139). It
was wrote in 24 languages, (R.99) and re-stressed
that BCG applies globally. (R.107.)
Respondent shall find a way to prove that Cai is
not an associate of Huntsman Corporation but seems
they can’t. Cai has never alleged Huntsman
Corporation breached Employment Contact. In the
Complaint, Cai only alleged Huntsman Corporation
breached BCG. (see generally R.5-8.) Cai merely
mentioned
Huntsman
Shanghai
breached
Employment Contract but didn’t name it as
defendant. Id.
BCG is a contact other than employment
contract. (R.98-140.) Its like a dos and don’ts list,
nearly covers every aspect, include how to use
company physical property, how to protect
intellectual property, how to use company IT systems,
how to cope with media and investors, how to handle
and/or
comply with conflicts
of interest,

4
anti-corruption, sex-harassment, insider trading,
international trading compliance, work-site EHS
(Environment, Safety & Health)...Id.
BCG stipulates rights and obligations other than
employment contract, that is to help Huntsman
maintain their “highest ethic standards and
reputation”. (R.103.) To that end they ask employees
to report possible violations (R.106.), and Huntsman
promise “protect them from retaliation”. (R. 107-109.)
“Violations of these Guidelines can have serious
consequences, including disciplinary action up to and
including termination of the individuals involved”.
(R.109) Even if the offender is not its employee,
Huntsman Corporation can ask its subsidiary to
terminate his employment contract.
We may cannot assert every provision in in BCG
constitutes enforceable contract, at least the
no-retaliation policy in BCG is unambiguous and
definite enough to constitute legally binding contract:
no retaliation, means zero retaliation, therefore
100% investigation should be carried out to
determine if retaliation exists. Suppose Huntsman
Corporation don’t do investigation, how could they
make sure no retaliation?
Respondent also contend that “the Guidelines
contain no specific contractual terms such as the
duration of any contract, any work to be performed,
or the salary to be paid”. See Br. in Opp. 1. But it
doesn’t stand with scrutiny. For example no one
denies that Non-disclosure Agreement (employee
need to keep employer’s secret) and Non-compete

5

Agreement (employee can not work for rival) are all
contracts, but they do not contains those terms that
the Utah Federal Judge was looking for.
In short, BCG is not an employment Contract,
but its a contract, as Utah Federal Court previously
ruled, “...the Code of Ethics and Conduct are
enforceable, unilateral contracts and are not illusory”.
Pet. at 8.
II. Lower Court’s Verdict Is Egregious, This
Court Shall Not Tolerate Perversion Of Law
Respondent contended that there is no federal
questions for review since only Utah State Contract
Law applied to this case. But they may forgot that it
was respondent themself first cited other circuit
court’s precedent cases to support their views, in
DEFENDANT
HUNTSMAN
CORPORATION’S
REPLY IN SUPPORT OF ITS MOTION FOR
JUDEMENT ON THE PLEADINGS, they cited
precedent case from 1st circuit: DeLia v. Verizon
Communications Inc., 656 F.3d 1, 7 (1st Cir. 2011).
(R.157.) But they overlooked one thing is that 1st
circuit also believe that “Code of Business Conduct”
constitutes contract, they didn’t ruled in favor of
employee only because the employee already has
signed “Code of Business Conduct” with subsidiary
instead of parent company. Pet. at 8.
The Supreme Court have already ruled that
“[f]ederal-question jurisdiction is usually invoked by
plaintiffs pleading a cause of action created by
federal law, but this Court has also long recognized

6
that such jurisdiction will lie over some
state-law claims that implicate significant federal
issues”, Grable & Sons Metal Prods., Inc. v. Darue
Eng'g & Mfg., 545 U.S. 308 (2005). This case is a
good example: There is no federal contract law in the
United States but the definition of contract is the
same in almost every states, that is require an offer,
an acceptance, and consideration. So there is a
common legal basis for reasoning.
The key point is how to define the definiteness of
contract terms. As petitioner mentioned, lower
courts’ verdict made a very bad precedent and bring
chaos into law system. They can’t point out which
BCG provision subject to more than one
interpretation, they just made conclusory assertion.
Pet. at 11. If this new approach works, other judges
nationwide may cite this bad precedent to void
contracts-any kind of contracts, as long as they don’t
like it, they could assert that they haven’t see the
element they thought to have, even its irrelevant.
Back to this case, lower court’s decision impacted
every working people and mess up other contract law
dispute. This matter will come to people’s attention
sooner or later. It shaken up America's contract law
foundation. The clarification of this issue is no less
important than the Constitution.
The trial court judge, Mr. Ted Stewart,
considered Code of Conduct a contract couple of years
ago, but reversed himself in this case. Pet. at 9-10.
The circuit court also turned a blind eye to this
confusion, refuse to follow precedent from same state,

7
allowing contradictory precedents to coexist. Pet. at
8-9. Lower court judges flouting legal precedents is
intolerable at any time. Supreme Court always limit
itself to be a law interpreter, but if lower court judges
do not respect law, this court’s work become
meaningless.
Petitioner comes from People’s Republic of China,
in that country, the judicial system is notorious, but
what you despised and hated is happening right now
in America. If this court do not say no to egregious
verdict, soon it will downgrade to China’s level.
CONCLUSION
The reasons set forth in this Petition prove a
substantial need for this Court’s intervention,
therefore Petitioner Hua Cai respectfully requests
this Honorable Court grant rehearing and his
Petition for a Writ of Certiorari. In view of the
egregiousness of the lower court’s decision, the Court
may wish to consider summary reversal.
February 7, 2021
Respectfully submitted,
Hua Cai
Pro se
2/F, No.5, Lane 113,
Changshu Road, Shanghai,
200040 P.R. China
Tel: +86 136 8195 1099
mustangincpk@y ahoo. com

Additional material
from this filing is
available in the
Clerk's Office.

i

